            UNIVERSITY OF ARIZONA
                SAHRA CENTER
                888 N. Euclid Ave.
               Tucson, AZ 85721

    National Science Foundation Award Numbers
                   EAR-9876800
              Financial Schedules and
           Independent Auditors’ Reports
For the Period January 1, 2000 to September 30, 2004




                                           CONRAD AND ASSOCIATES, L.L.P.
                                                 Certified Public Accountants
                                                2301 Dupont Drive, Suite 200
                                                      Irvine, California 92612
                    FOR OFFICIAL USE ONLY

                REPORT RELEASE RESTRICTION

THIS REPORT MAY NOT BE RELEASED TO ANYONE OUTSIDE THE
NATIONAL SCIENCE FOUNDATION WITHOUT ADVANCE APPROVAL BY
THE NSF OFFICE OF INSPECTOR GENERAL. THE ONLY EXCEPTION IS AN
AGENCY INVOLVED IN NEGOTIATING OR ADMINISTERING NSF AWARDS.
THE INFORMATION IN THIS REPORT SHOULD BE TREATED AS
CONFIDENTIAL AND MAY NOT BE USED FOR PURPOSES OTHER THAN
ORIGINALLY INTENDED WITHOUT PRIOR CONCURRENCE FROM THE NSF
OFFICE OF INSPECTOR GENERAL.
                                                               UNIVERSITY OF ARIZONA
                                                                    SAHRA Center

                                                                      Table of Contents

                                                                                                                                                                   Page

Executive Summary:
  Background....................................................................................................................................................     1
  Audit Objectives, Scope and Methodology....................................................................................................                        1
  Summary of Audit Results .............................................................................................................................             2
  Summary of Recommendations ....................................................................................................................                    4
  Summary of Auditee’s Response to Audit Results ........................................................................................                            4
  Follow-up of Prior Audit Findings...................................................................................................................               4
  Exit Conference .............................................................................................................................................      4

Findings and Recommendations:
   Report on Compliance and Other Matters and on Internal Control over Financial Reporting
    Based on an Audit Performed in Accordance with Government Auditing Standards..................................                                                   6

Financial Schedules and Supplemental Information:
   Independent Auditors’ Report on Financial Schedules .................................................................................                            16
   Schedule A - Schedule of Award Costs (Award No. EAR-9876800).............................................................                                        18
   Schedule B - Schedule of Questioned Costs (Award No. EAR-9876800) ....................................................                                           19
   Schedule C - Summary Schedules of Awards Audited and Audit Results....................................................                                           29
   Notes to Financial Schedules .......................................................................................................................             30

Appendix - Awardee’s Comments to Report
EXECUTIVE SUMMARY
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


BACKGROUND

The University of Arizona (University) is a public university located in Tucson, Arizona. The University was
established in 1885 and is part of Arizona’s state-operated educational institutions. The University follows the
Federal administrative requirements contained in OMB Circular A-110, Uniform Administrative Requirements for
Grants and Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations and
the cost principles specified in Office of Management and Budget (OMB) Circular A-21, Cost Principles for
Educational Institutions. The National Science Foundation (NSF), under the Science and Technology Centers
Program, awarded the University a cooperative agreement in the amount of $16,992,249 during the period of
January 1, 2000 through December 31, 2004. As a part of the award, the University was required to cost share in
the amount of $6,691,853 over the five year period. The audit period for this report is January 1, 2000 through
September 30, 2004.

Award EAR-9876800 – Sustainability of semi-Arid Hydrology and Riparian Areas (SAHRA)
The NSF award provides the University financial support to operate the Science and Technology Center for the
Sustainability of Water Resources in Semi-Arid Regions (SAHRA Center). The Center’s overall mission is to
nurture effective mechanisms for rapidly moving the state of scientific knowledge into widespread use by the
public and private agencies responsible for managing the vulnerable water resources in semi-arid regions.
Through the combination of research and education of students, the Center is building an interdisciplinary
perspective and technological skills within professionals practicing water resources management.

The NSF award is administered and operated by personnel at the SAHRA Center located on the campus of the
University. The Center operates within the University’s Department of Hydrology, which ultimately is within the
School of Engineering.


AUDIT OBJECTIVES, SCOPE & METHODOLOGY

At the request of the NSF Office of Inspector General (OIG), Conrad and Associates, L.L.P., conducted an audit
of NSF cooperative agreement EAR-9876800 awarded to the University of Arizona. Our audit objectives were to:

   1. Determine whether the Schedule(s) of Award Costs of the University of Arizona presents fairly, in all
      material respects, the costs claimed on the Federal Cash Transactions Reports (FCTR) – Federal Share
      of Net Disbursements in conformity with NSF OIG’s Financial Audit Guide, and terms and conditions of
      the NSF award.
   2. Identify matters concerning instances of noncompliance with laws, regulations, and the provisions of the
      award agreement pertaining to the NSF awards and weaknesses in the University of Arizona’s internal
      control over financial reporting that could have a direct and material effect on the Schedule of Award
      Costs and the University of Arizona’s ability to properly administer, account for, and monitor its NSF
      awards.




                                                       1
National Science Foundation
Office of Inspector General
(Continued)



To accomplish the objectives of the audit, we:
    • Prepared a survey and internal control audit-planning document for OIG review and approval. The
       document included the proposed audit program and sampling methodology for performing the audit
       survey, gaining an understanding of the grantee’s policies and procedures and financial systems for
       administering its NSF awards, identifying risks in the grantee’s operations for effectively administering its
       NSF awards, and testing the grantee’s significant internal controls to determine whether those controls
       are operating effectively to mitigate the identified risk.
    • Prepared a survey and internal control assessment report for OIG review and approval. The assessment
       report included a summary of the results of the on-site audit survey and testing of significant internal
       controls.
    • Prepared a substantive audit testing planning document for OIG review and approval. The document
       included the proposed audit program including sections on tests of compliance with applicable laws and
       regulations, and substantive testing procedures to determine whether costs charged to the NSF award(s)
       by the awardee are allowable, allocable, and reasonable in accordance with the applicable Federal cost
       principles and award terms and conditions.
    • Prepared Notification of Findings (NOFs) based on the results of audit fieldwork. The NOFs included
       detailed information on each finding identified.

Our audit was conducted in accordance with auditing standards generally accepted in the United States of
America, Government Auditing Standards issued by the Comptroller General of the United States of America.
Our audit of the aforementioned awards used non-statistical sampling to test the costs claimed by the University
and to test for compliance with Federal and NSF award requirements.


SUMMARY OF AUDIT RESULTS

Our audit found that the University was generally able to account for NSF funds. However, we identified a
significant weakness in subawardee oversight that resulted in $354,938 of questioned costs. We also identified
other areas in which the Center can improve including electronic payment approvals, consulting costs approvals,
and payroll expenses documentation. We performed an audit on the financial reports submitted to the NSF as
well as cost sharing provided by the University on the NSF award. These costs are shown in Schedule A of this
report and are summarized as follows:

                                                                Costs
                                              Claimed          Selected    Questioned
     NSF Award No.       Award Budget          Costs          for Review     Costs
     EAR – 9876800       $ 16,992,249        14,169,314        6,993,072       52,737

     Cost Sharing           6,691,853         6,658,098        2,544,856      335,187
                 Total   $ 23,684,102        20,827,412        9,537,928      387,924


Our audit of this award disclosed questioned costs of $387,924 in the following cost categories: salaries and
wages, fringe benefits, publication, consulting, subawards, indirect, and cost sharing. Questioned costs are (1)
costs for which there is documentation that the recorded costs were expended in violation of the law, regulations,
or specific conditions of the award; (2) costs that require additional support by the awardee; or (3) costs that
require interpretation of allowability by the National Science Foundation.



                                                          2
National Science Foundation
Office of Inspector General
(Continued)


We noted compliance deficiencies and internal control weaknesses that could have a significant impact on the
University’s ability to record, process, summarize, and report financial data, and effectively and efficiently
administer the funds in a manner that is consistent with NSF and other Federal laws and regulations. If the
University fails to address these compliance and internal control weaknesses, similar problems may occur on
other existing and/or future NSF awards granted to the University.

The following is a brief description of the compliance and internal control findings that resulted from our audit. For
a complete discussion of these findings, refer to the Report on Compliance and Other Matters and Internal
Controls over Financial Reporting Based on an Audit Performed in Accordance with Government Auditing
Standards.

Inadequate Subawardee Monitoring

The University needs to establish a risk-based monitoring program to ensure that costs invoiced or claimed and
certified as cost sharing by the subawardees of the SAHRA Center are accurate, allowable, allocable, and
properly documented per NSF regulations and OMB Circulars. Approximately $1 million, or 15 percent of the cost
sharing expenditures claimed and certified by the University was contributed from subawardees. Additionally,
subaward costs that NSF funded totaled $3,384,726, or 24 percent of the total costs claimed. However, for cost
sharing contributions, the Center relied only on the subawardees’ annual certifications of the amounts claimed,
without requesting or maintaining additional documentation to prove the accuracy or validity of the claimed
amounts. For NSF-funded subaward costs, the Center only reviewed costs invoiced for budgetary compliance,
without reviewing detailed ledgers or other source documentation to support the costs.

As a result, we have questioned $335,187 of cost share expenditures and $19,751 of subaward costs for which
neither the Center nor the subawardee could provide adequate documentation to support the costs claimed.

Other Compliance & Internal Control Weaknesses

Electronic Payment Approvals – Federal regulations and NSF award terms and conditions require that
awardees maintain records and supporting documentation for a specified period of time, generally 3 years.
However, the University only maintained some documentation pertinent to purchasing approvals for a period of 90
days. This occurred because the University’s new system was not designed to maintain records for the
necessary time period. We did not question any costs because we were able to perform alternative audit
procedures to verify allowability of sampled costs. However, the University’s ability to ensure costs claimed are
allowable allocable, reasonable, and properly supported is limited and may result in future questioned costs.

Consulting Costs – Federal cost principles require that in order for a cost to be allowable, it must be reasonable
and allocable. However, the SAHRA Center was approving consulting invoices for payment without determining
whether those costs were reasonable and allocable. This occurred because a lack of controls over these
expenditures allowed the SAHRA Center to presume the costs were allowable without additional review or
support. As a result we have questioned a total $3,812 in consulting and indirect costs that we have found to be
unallocable to the NSF award and therefore unallowable.

Payroll Expense – For 18 payroll transactions, out of a sample of 1,132 transactions, the University could not
locate signed employee timesheets contrary to Federal regulations and NSF award terms and conditions. This
occurred because the University may have misfiled the timesheets. As a result, we have questioned a total of
$28,704 in salary, fringe benefit, and indirect costs.

Publication Costs – The University charged the NSF award for the full amount of invoices for publication costs,
although it received a discount from the vendors. This occurred because the University has a policy that provides
that discounts on third-party publications will be retained by the University print shop as an offset to overhead.
Because this policy is not in conformance with the University’s negotiated indirect cost rate, we have questioned a
total of $470 in publications and indirect costs.




                                                          3
National Science Foundation
Office of Inspector General
(Continued)


SUMMARY OF RECOMMENDATIONS

To address the potential internal control weaknesses, we recommend that the Directors of NSF’s Division of
Acquisition and Cost Support (DACS) and the Division of Grants and Agreements (DGA) instruct the University of
Arizona to (1) develop and implement written policies and procedures to assess and document each
subawardee’s risk of claiming non-allocable or non-allowable costs, including cost sharing expenditures; based on
these assessments, perform periodic reviews of each subawardee’s invoices to ensure costs claimed are
allowable, allocable, and properly documented in accordance with NSF regulations and applicable OMB Circulars;
review cost sharing expenditures claimed by subawardees for allowability and allocability prior to the inclusion of
the amounts in to the University’s annual cost sharing certification to NSF; (2) develop and implement written
policies and procedures to ensure that approvals for all stages of procurements are maintained in accordance
with record retention polices in accordance with NSF regulations and OMB circulars; (3) formally adopt the
University’s change in procedures for approving consulting costs by implementing written policies and procedures
requiring verification of services rendered prior to approving consulting payments; (4) review the record retention
policy and modify, if necessary, to ensure timesheets are properly filed and maintained for all employees charging
salaries to the NSF award; and (5) review its indirect cost rate to ensure the 2% discount on third-party vendor
invoices was properly determined based on the cost accounting standards for the print shop.


SUMMARY OF AUDITEE’S RESPONSE TO AUDIT RESULTS

The University of Arizona has concurred with three of the findings and recommendations noted and have taken
corrective actions to develop procedures to strengthen internal controls. In addition, the University has disagreed
with two of the findings and have submitted additional documentation to support their position.

See Appendix section of this report for a complete copy of University of Arizona’s response to the
recommendations.


FOLLOW-UP OF PRIOR AUDIT FINDINGS

Since the inception of the grant award, the SAHRA Center has never been audited by NSF or as a major program
in the OMB A-133 Single Audit Report. The SAHRA Center’s expenditures are included in the University’s single
audit report and are clustered as part of the University’s Research and Development Grants major program;
however, a specific financial or compliance review of the SAHRA Center’s expenditures had not been performed
prior to this audit.


EXIT CONFERENCE

An exit conference was held on March 4, 2005 at the University of Arizona located at 888 N. Euclid Ave., Tucson,
Arizona 85721. Preliminary findings and recommendations noted during the audit were discussed with those in
attendance. The University was informed that the preliminary findings and recommendations were subject to final
review by NSF and the report may include additional findings and recommendations and/or omit certain items
discussed.

University of Arizona
              Name                         Department                              Title
     XXXXXXXXXXXXXxx           Sponsored Project Services                 XXXXXXXXXXXXXxx
     XXXXXXXXXXXXXxx           Sponsored Project Services                 XXXXXXXXXXXXXxx
     XXXXXXXXXXXXXxx           SAHRA Center                               XXXXXXXXXXXXXxx
     XXXXXXXXXXXXXxx           SAHRA Center                               XXXXXXXXXXXXXxx

                                                        4
National Science Foundation
Office of Inspector General
(Continued)


     XXXXXXXXXXXXXxx          SAHRA Center                             XXXXXXXXXXXXXxx
     XXXXXXXXXXXXXxx          Office of Research & Contract Analysis   XXXXXXXXXXXXXxx
     XXXXXXXXXXXXXxx          Office of Research & Contract Analysis   XXXXXXXXXXXXXxx
     XXXXXXXXXXXXXxx          Financial Services Office                XXXXXXXXXXXXXxx
     XXXXXXXXXXXXXxx          Department of Hydrology & Water          XXXXXXXXXXXXXxx
     XXXXXXXXXXXXXxx          Department of Hydrology & Water          XXXXXXXXXXXXXxx

Conrad and Associates, L.L.P.
            Name                     Title
    XXXXXXXXXXXXXxx           XXXXXXXXXXXXXxx
    XXXXXXXXXXXXXxx           XXXXXXXXXXXXXxx
    XXXXXXXXXXXXXxx           XXXXXXXXXXXXXxx


National Science Foundation – Office of Inspector General (OIG)
             Name                        Title
     XXXXXXXXXXXXXxx         XXXXXXXXXXXXXxx


A follow up teleconference was held with the University on May 2, 2006. The purpose of the teleconference was
to update the University on the latest finding and pending issuance of the draft report.




                                                      5
FINDINGS AND RECOMMENDATIONS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


               REPORT ON COMPLIANCE AND OTHER MATTERS AND INTERNAL CONTROL
                   OVER FINANCIAL REPORTING BASED ON AN AUDIT PERFORMED
                    IN ACCORDANCE WITH GOVERNMENT AUDITNG STANDARDS

We have audited the Schedule of Award Costs as presented in Schedule A, which summarizes the financial
reports submitted by the University of Arizona (University) to the National Science Foundation (NSF) for the
awards and periods listed below and have issued our report thereon dated August 5, 2005.

                Award Number                       Award Period                        Audit Period

                EAR – 9876800                   01/01/00 – 12/31/04                01/01/00 – 09/30/04

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States of America, and the National Science Foundation Audit Guide
(November 2003).

                                     COMPLIANCE AND OTHER MATTERS

Compliance with applicable Federal laws, regulations, and the NSF award terms and conditions is the
responsibility of the University’s management. As part of obtaining reasonable assurance about whether the
financial schedule is free of material misstatement, we performed tests of the University’s compliance with certain
provisions of laws, regulations, and the NSF award terms and conditions, noncompliance with which could have a
direct and material effect on the determination of financial schedule amounts. However, providing an opinion on
compliance with those provisions was not an objective of our audit and, accordingly, we do not express such an
opinion.

The results of our tests disclosed instances of noncompliance described below that are required to be reported
under Government Auditing Standards and the National Science Foundation Audit Guide. We considered these
instances of noncompliance in forming our opinion on whether the Schedule of Award Costs (Schedule A)
presented fairly in all material respects, in conformity with National Science Foundation’s policies and procedures,
and determined this report does not affect our report dated August 5, 2005 on the financial schedule.


                             INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of the University is responsible for establishing and maintaining internal control. In fulfilling this
responsibility, estimates and judgments made by management are required to assess the expected benefits and
related costs of internal control policies and procedures. The objectives of internal control are to provide
management with reasonable, but not absolute assurance that assets are safeguarded against loss from
unauthorized use or disposition, and that transactions are executed in accordance with management’s
authorization and recorded properly to permit the preparation of financial schedules in accordance with
accounting principles prescribed by the National Science Foundation. Because of inherent limitations in any
internal control, misstatements due to errors or fraud may nevertheless occur and not be detected. Also,
projection of any evaluation of internal control to future periods is subject to the risk that procedures may become
inadequate because of changes in conditions or that the effectiveness of the design and operation of policies and
procedures may deteriorate.


                                                         6
National Science Foundation
Office of Inspector General
(Continued)


In planning and performing our audit of the Schedule of Award Costs (Schedule A) for the period January 1, 2000
to September 30, 2004, we considered the University’s internal control over financial reporting in order to
determine our auditing procedures for the purpose of expressing our opinion on the schedule and not to provide
an opinion on the internal control over financial reporting. Accordingly, we do not express such an opinion.
However, we noted certain matters involving the internal control over financial reporting and its operation that we
consider to be reportable conditions under standards established by the American Institute of Certified Public
Accountants. Reportable conditions involve matters coming to our attention relating to significant deficiencies in
the design or operation of the internal control over financial reporting, that, in our judgment, could adversely affect
the University’s ability to record, process, summarize, and report financial data consistent with the assertions of
management in the financial schedule.

A material weakness is a reportable condition in which the design or operation of one or more of internal control
elements does not reduce, to a relatively low level, the risk that misstatements caused by error or fraud in
amounts that would be material in relation to the financial schedules being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions. Our
consideration of the internal control over financial reporting would not necessarily disclose all matters related to
internal control over financial reporting that might be reportable conditions, and, accordingly, would not
necessarily disclose all reportable conditions that are also considered to be material weakness.

We noted certain matters described below involving the internal control over financial reporting and its operation
that we consider to be reportable conditions. However, we do not consider any of the reportable conditions to be
material weaknesses.

Inadequate Subawardee Monitoring

Lack of Controls over Subawardee Cost Sharing Expenditures

The University did not maintain adequate documentation to support cost sharing expenditures claimed by its
subawardees, or require such documentation from its subawardees, contrary to Federal regulations and NSF
award terms and conditions. This occurred because the University does not have adequate controls in place to
ensure that all subawardee cost sharing expenditures are accurate, allocable, allowable, and adequately
documented. As a result, we have questioned $335,187 in cost sharing expenditures out of $2,544,856 selected
for review.

NSF Grant General Conditions, Article 22, Section C, requires an awardee to maintain records of all claimed
project costs including both cost sharing and costs to be paid NSF. OMB Circular A-110, Subpart C, Section
.23(a), prescribes the criteria and procedures for the allowability of cost sharing expenditures and requires,
among other things, that cost sharing meet the same cost principles as costs to be paid by NSF. In addition,
OMB Circular A-110, Subpart C, Section .51(a), requires awardees to manage and monitor subawards.

On an annual basis, the University requires its subawardees to complete cost sharing certifications of their cost
sharing expenditures claimed to date. Using these certifications and its own cost sharing expenditure information,
the University compiles an overall cost sharing certification that it submits to NSF. As of August 31, 2004,
subawardees, in total, had provided approximately $1 million of the $6.6 million cost sharing expenditures claimed
by the University. However, these subawardee certifications are the only source documentation maintained by
the University to support the subawardee amounts claimed as cost sharing. No other detail listing or source
documentation is submitted by the subawardee with its certifications to support the cost sharing claimed. In
addition, the University has no process in place to verify the accuracy and validity of the expenses claimed on the
subawardee certifications. The University relies solely on the subawardees’ certifications to ensure the cost
sharing amounts it claims to NSF are accurate and properly documented.

Because the University has no process in place for verifying the validity of cost sharing claimed by its
subawardees, we conducted additional testing of subawardee cost sharing. Based on our review of a sample of
cost sharing expenditures claimed, we found that $335,187 of the costs claimed as cost sharing were


                                                          7
National Science Foundation
Office of Inspector General
(Continued)


inadequately supported by source documentation. This amount includes cost sharing claimed by two
subawardees that failed to provide any source documentation to support the claimed costs.

As a result of the lack of controls ensuring the accuracy and validity of cost sharing claimed by the University and
its subawardees, the University may be certifying to cost sharing expenditures that either may not exist or are not
allowable per Federal and NSF regulations. In addition, this lack of subawardee oversight could result in the
University not meeting its overall cost-sharing requirement at the end of the award period.

Consequently, out of $2,544,856 in costs selected for review, we have questioned cost sharing expenditures
totaling $335,187 as follows: (Also see Schedule of Questioned Costs, Schedule B, Note B-6)

                                                                                       Reviewed      Questioned
       Subawardee                                Exceptions Noted                       Costs          Costs
  Arizona State               Claimed payroll expense did not agree with submitted    $ 25,475       $ 1,160
  University                  supporting payroll documentation.
  New Mexico Institute        Detailed ledgers provided by NMT did not agree with        109,336       118,207
  for Mining &                the amounts reported on University of Arizona’s
  Technology (NMT)            annual cost share certification.
  Pennsylvania State          No documentation (supporting schedules, detail                   0       139,327
  University                  ledgers, or source documents) was provided to
                              support the amounts claimed.
  University of California,   Source documents were not provided to support the           22,180        66,448
  Riverside                   sample transactions selected for review.
  University of New           Submitted source documentation (payroll records)          120,779         10,045
  Mexico                      indicated an amount less that the amount reported by
                              the University of Arizona.
  All Other Subawardees       No exceptions noted.                                      407,890             0
                                                                              Total   $ 685,660     $ 335,187


Lack of Controls over Subawardee Costs Funded by NSF

Contrary to applicable Federal regulations and the NSF award terms and conditions, the University did not
adequately monitor and report subaward costs charged to the NSF award. This occurred because the University
lacks an adequate risk-based system and policies and procedures to monitor and report its subaward costs. As a
result, we have questioned subaward costs totaling $19,751 out of $1,914,520 selected for review.

OMB Circular A-110, Subpart C, Section .51 (a), requires recipients to manage and monitor each project, program
and sub award. In addition, Subpart C, Section .21 (b)(1) requires accurate, current, and complete disclosure of
the financial results of each Federally sponsored project or program. Moreover, OMB Circular A-133, Subpart D,
Section 400(d.3) requires an awardee to “monitor the activities of subrecipients as necessary to ensure that
federal awards are used for authorized purposes in compliance with laws, regulations, and the provisions of
contracts or grant agreements and that performance goals are achieved.”

SAHRA has 12 subawards totaling $3,384,726 in claimed costs, which represent 32 percent of the total direct
costs claimed on the NSF award. Depending on the cash flow necessity, subawardees could either bill the
University on a monthly or quarterly basis. In either case, subawardees would submit an invoice, which is
processed within the University as a payment to vendors. The invoice is reviewed for budgetary compliance and
approved by the Business Manager assigned to monitor SAHRA Center expenditures and paid through the
University’s Financial Service Office. However, there are no additional policies or internal controls to ensure the
amounts on the invoices are accurate, allocable, allowable, and properly supported per NSF and OMB grant
requirements. The University had assumed that the certified invoices from the subawardees were sufficient to
support the costs claimed. It also assumed that a clean review of the subawardee’s A-133 Single Audit report,
along with an invoice signed by a responsible fiscal person at the subawardee, allowed the University to accept
the claimed costs as valid and allowable.

                                                         8
National Science Foundation
Office of Inspector General
(Continued)



Because the University has no process in place for verifying the validity of costs claimed by its subawardees, we
conducted additional testing of subawardee expenditures. During our audit, we selected a sample of invoices
from each subawardee and requested the subawardees to submit source documentation supporting the amounts
claimed on the selected invoices. After extensive review of all the source documentation submitted, we noted that
most of the costs claimed by the subawardees were properly supported. However, there were a few
subawardees where some of the costs claimed were either inadequately supported or no source documentation
was provided.

This lack of internal controls in place to review costs claimed by subawardees also limits the University’s ability to
ensure costs charged to the NSF award are accurate, valid, allowable, and adequately documented per NSF
regulations and OMB Circular.

As a result, out of $1,914,520 in costs selected for review, we questioned subaward costs totaling $19,751 as
follows: (Also see Schedule of Questioned Costs, Schedule B, Note B-4)

                                                                                            Reviewed    Questioned
    Subawardee                                   Exceptions Noted                            Costs         Costs
University of California,   •   Documentation was not provided for 14 transactions         $ 144,488     $   909
Los Angeles                     claimed.
                            •   Eleven transactions were supported only with vendor
                                price quotes and purchase orders, rather than invoices
                                to evidence the actual purchase and associated cost.
University of California,   •   Amount claimed on 1 transaction did not agree with the        85,978           843
Riverside                       travel expense document.
                            •   Also, supporting travel expense invoices and receipts
                                were not provided.
Columbia University –       •   No documentation was provided to support any of the           16,139        17,999
Biosphere                       costs claimed. Records were unavailable for our
                                review due to an ongoing legal dispute unrelated to our
                                audit.
All Other Subawardees       •   No exceptions noted.                                        1,667,915            0
                                                                                   Total   $1,914,520     $ 19,751


Recommendation No. 1
We recommend that NSF’s Directors of DACS and DGA instruct the University of Arizona to develop and
implement written policies and procedures to assess and document each subawardee’s risk of claiming non-
allocable or non-allowable costs, including cost sharing expenditures. Based on the level of risk assessed, the
University should perform periodic reviews of each subawardee’s invoices to ensure costs claimed are allowable,
allocable, and properly documented in accordance with NSF regulations, OMB Circulars A-110 and A-133, and
any other applicable OMB Circulars. In addition, these policies and procedures should include a process for
reviewing cost sharing expenditures claimed by subawardees for allowability and allocability prior to the inclusion
of the amounts in the University’s annual cost sharing certification to NSF. These reviews should allow the
University the ability to provide reasonable assurance that all costs claimed are accurate, allowable, and properly
documented per NSF regulations and OMB Circulars.


Awardee Comments
The University concurs with the finding and will develop and implement written policies and procedures to assess
and document each subawardee’s risk of claiming non-allocable or non-allowable costs, including cost sharing
expenditures. The responsible departments within the University will be advised for appropriate monitoring
activities according to the risk levels of subawardees. The University expects to complete the development of
written policies and procedures by June 30, 2006.


                                                           9
National Science Foundation
Office of Inspector General
(Continued)


Auditor’s Response
We acknowledge and concur with the University’s development of written policies and procedures to assess and
document each subawardee’s risk of claiming non-allocable and/or non-allowable costs.


Other Compliance & Internal Control Weaknesses

Inadequate Retention of Electronic Payment Approvals

Federal regulations and NSF award terms and conditions require that awardees maintain records and supporting
documentation for a specified period of time, generally 3 years. However, the University only maintained some
documentation pertinent to purchasing approvals for a period of 90 days. This occurred because the University’s
new system was not designed to maintain records for the necessary time period. We did not question any costs
because we were able to perform alternative audit procedures to verify allowability of sampled costs. However,
the University’s ability to ensure costs claimed are allowable allocable, reasonable, and properly supported is
limited and may result in future questioned costs.

OMB Circular A-110, Subpart C, Section .53(b), and NSF Grant General Conditions, Article 23(a) require
awardees to retain “Financial records, supporting documents, statistical records, and all other records pertinent of
an award” for a period of three years from the submission of final reports on the award.

The University’s accounting system includes a component for electronic-signature approval of non-payroll
transactions. This system is designed to ease administrative burden and provide a more streamlined and
paperless process. During our review of equipment costs charged to the NSF award, we found two separate
transactions for computers and printers totaling $12,835. Our review of the supporting documentation indicated
the approvals of the purchase order, acceptance and receipt of goods, and authorization of the payment were
evidenced with electronic signatures through the University’s accounting system. However, the system only
maintains the signature for 90 days – hard copies of the electronic signatures are not maintained as part of the
documentation supporting the transaction. Also, while the University does require manually prepared and
approved requisition orders for equipment and supply purchases, the University was unable to provide them for
our sampled transactions. Without the signed requisitions, we could not determine whether purchases were
properly approved. However, we were able to perform alternative audit procedures to verify the existence of the
sampled equipment charged to the NSF award and validate its use at the SAHRA Center. Consequently, we
have not questioned any costs associated with these equipment purchases.

This occurred because the University has indicated that its accounting system only has the memory capacity to
maintain signatures for a period of 90-days after payment. In addition, the University’s external auditors have
reviewed this system and its control environment and deemed them adequate. However, the external auditors
have had to rely on paper documentation when testing transactions outside of the 90-day retention window. This
paper documentation was unavailable for the equipment transactions sampled in our audit and reveals a potential
inconsistency in how the University is maintaining purchase approval records.

Federal regulations and NSF award terms and conditions relating to record retention are designed so that
awardees can maintain a clear audit trail to document approvals of purchases using NSF funds. The University’s
failure to fully comply with the record retention requirements limits the University’s ability to ensure costs claimed
to the NSF award are allowable, allocable, reasonable, and properly supported per NSF regulations and OMB
Circulars.

Recommendation No. 2
We recommend that NSF’s Directors of DACS and DGA instruct the University of Arizona to develop and
implement written policies and procedures to ensure that approvals for all stages of procurements are properly
maintained in accordance with record retention polices in NSF regulations and OMB circulars. This may include a
modification to the memory capacity of the accounting system, or the retention of paper records documenting the
electronic approvals.


                                                         10
National Science Foundation
Office of Inspector General
(Continued)


Awardee Comments
The University of Arizona does not concur that the University’s electronic payment approvals were inadequately
retained. The University’s on-line Department Purchase Requisitions (DPR) System does retain payment
approval signatures. DPR records are retained electronically in perpetuity via magnetic tape. Copies of the
archived DPR records supporting the transactions in question were submitted with the response.


Auditor’s Response
Based on several meetings with the University’s management during field work and discussions with the external
auditors, it was determined and agreed by everyone that the accounting system does not have the capabilities to
retain approvals beyond 90 days after payment. System printouts provided during field work did not have any of
the approvals shown, unlike the documentation submitted. As such, without performing additional review of the
accounting system and how DPR records are electronically retained, we are only able to place limited reliance on
the documentation. Therefore, the finding and recommendation remains unchanged.


Inadequate Review of Consulting Expenditures

Federal cost principles require that in order for a cost to be allowable, it must be reasonable and allocable to the
NSF award. However, the SAHRA Center was approving consulting invoices for payment without determining
whether those costs were reasonable and allocable. This occurred because a lack of policies and procedures
over these expenditures allowed the SAHRA Center to presume the costs were allowable without additional
review or support. As a result we have questioned a total of $3,812 in consulting and indirect costs that we have
found to be unrelated to the NSF award and therefore unallowable.

OMB Circular A-21, Part C, section 2 states that for costs to be allowable, they must be both reasonable and
allocable. In addition, OMB Circular A-21, Part C, section 3 defines a cost as reasonable if “the nature of the
goods or services acquired or applied, and the amount involved therefore, reflect the action that a prudent person
would have taken under the circumstances prevailing at the time the decision to incur the costs was made…”
Further, OMB Circular A-21, Part C, section 4(a) states a cost is allocable “if the goods or services involved are
chargeable or assignable to such cost objectives in accordance with relative benefits received or other equitable
relationship…”

Our review of consulting costs disclosed that the SAHRA Center Business Manager approved all consulting
invoices for payment. The Business Manager reviewed the invoices to determine whether they were for activities
and items that were consistent with the contract requirements. However, the Business Manager was not required
to verify with the Principal Investigator (PI) or Macro Theme Leaders that the actual consulting services were
rendered. Instead, the invoice was assumed to be payable unless the Business Manager was informed by the PI
or the Macro Theme Leaders about a particular problem with the consulting services and/or contract. The
Business Manager did not have any daily contact with the consultants and also did not review any of the work
performed by the consultants. It was assumed the PI and/or the Macro Theme Leaders would inform the
Business Manager of any problem with consulting services. It was also presumed that a lack of communication
was an indication of approval to pay the invoice.

As a result, our review of consulting costs disclosed one transaction reimbursing a consultant for travel expenses,
for which there was no documentation to support the purpose of the trip. Without this documentation, we were
unable to determine if the expense benefited and therefore was allocable to the award. Out of $70,286 in costs
selected for review, we have questioned consulting costs of $2,516 and the associated indirect costs of $1,296,
for a total of $3,812. (Also see Schedule of Questioned Costs, Schedule B, Note B-3)

Beginning January 1, 2005, the University now requires the Business Manager to obtain formal written
confirmation, prior to payment, from either the PI or Macro Theme Leader confirming the consulting services have
been rendered in accordance with the contract or the billing reflects the actual progress or performance. In
addition, the University made a journal entry in February 2005 to remove the consultant travel expenses
mentioned above from the NSF award. Although the University has corrected the entry, the costs will remain

                                                        11
National Science Foundation
Office of Inspector General
(Continued)


questioned as our audit period ends September 30, 2004 and the costs were claimed on the 9/30/04 FCTR.
However, the University has not fully corrected the control weakness, because although the Business Manager
now engages in a new practice of seeking formal confirmation prior to approving consulting costs, this practice
needs to be formally documented as a written policy.

The lack of policies and procedures to review consulting invoices to ensure services have been rendered
according to contracted terms limits the University’s ability to ensure consulting costs charged to the NSF award
are allowable, allocable, reasonable, and properly supported.

Recommendation No. 3
We recommend that NSF’s Directors of DACS and DGA instruct the University of Arizona to formalize into a
written policy its current practice of requiring the Business Manager to obtain formal written confirmation that the
consulting services have been rendered in accordance with the contract or the billing reflects the actual progress
or performance.


Awardee Comments
The University of Arizona concurs with the recommendation that the University should institute a formal policy to
require principal investigators or appropriate individuals on the research team to approve consulting services
received before payment is processed. The University is in the process of formalizing this practice into a written
policy in University policy manuals.


Auditor’s Response
We acknowledge and concur with the University’s plan to institute a formal policy within the University’s procedure
manuals.


Inadequate Documentation of Payroll Expenses

For 18 payroll transactions, out of a sample of 1,132 transactions, the University could not locate signed
employee timesheets as required by Federal regulations and NSF award terms and conditions to support labor
costs charged to the award. This occurred because the University may have misfiled the timesheets. As a result,
we have questioned a total of $28,704 in salary, fringe benefits, and associated indirect costs.

OMB Circular A-21, Part J, Section 10 requires proper documentation of payroll expenditures including signed
timesheets. In addition, OMB Circular A-110 Subpart C, Section .53(b), and NSF Grant General Conditions,
Article 23(a) require awardees to retain “Financial records, supporting documents, statistical records, and all other
records pertinent of an award” for a period of three years from the submission of final reports on the award. The
University has policies requiring employees working on Federal grants to document their time spent on a
particular project. At the end of each pay period, employees are required to complete a time sheet to indicate
which project they worked on and the labor hours worked contributed to that project. The employee and a
supervisor with direct knowledge of the employee’s work must sign each of the time sheets. Employees are not
paid without a properly completed timesheet on file with the payroll department.

During our audit, we sampled 1,132 payroll transactions covering 14 pay periods and our review disclosed 18
exceptions. A total of 18 payroll transactions, representing only 1.6% of those tested, were not supported with a
signed timesheet from the employee. For 14 of these transactions, the University was unable to locate the
timesheets. For 4 others, we also found no timesheets. These 4 transactions were associated with employees
with academic appointments, for which the University does not require timesheets and believes the costs should
not be questioned. However, OMB Circulars still require an after-the-fact certification signed by the employee,
principal investigator, or responsible official to certify the level of effort performed for the project. As a result, we
have questioned $16,011 of salary expense, $2,936 of related fringe benefit costs, and $9,757 of indirect costs
claimed on the salary and fringe benefit costs. (Also see Schedule of Questioned Costs, Schedule B, Notes B-1
and B-2)

                                                           12
National Science Foundation
Office of Inspector General
(Continued)



For the 14 transactions not associated with academic appointments, the University believes the timesheets may
have been misfiled, which prevents a quick and easy retrieval of the records. In addition, the University believes
that its controls over payroll expenditures would have prevented the payment to employees who did not properly
complete a timesheet. However, for the 4 transactions associated with academic appointments, the University
does not require signed certification of the employee’s effort.

The lack of properly completed timesheets to support salary expenses claimed limits the University’s ability to
ensure the costs charged to award actually benefited the award. Without properly completed and signed
timesheets, it could not be determined if costs are properly allocable and allowable per NSF regulations and OMB
Circulars.


Recommendation No. 4
We recommend that NSF’s Directors of DACS and DGA instruct the University of Arizona to review their record
retention policy and modify, if necessary, to ensure timesheets are properly filed and maintained for all employees
charging salaries to the NSF award.


Awardee Comments
The University concurs with the recommendation that timesheets should be properly filed and maintained at the
SAHRA Center. However, the University does not concur that all 18 transactions should be questioned, as six of
the transactions (four related to academic personnel and two removed from the grant) should not be questioned.

In addition, the University does not concur with the finding stating the University has no signed certification of an
employee’s effort for the academic personnel. Although the University does not require timesheets for academic
personnel, the payroll time roster is verified and certified electronically on a biweekly basis by the department
authorized official for all employees. Starting January 1, 2006, the business manager has taken an additional
step to require the PI approve and certify the work performed by all employees on the grant on a quarterly basis.

Furthermore, the University believes that the two transactions, which were transferred out of the grant in October
2004, should not be questioned. The two transactions were posting errors and removed from the grant when
detected. Although the correction was not made within the audit period, it was made before the start of audit.
Internal controls were strengthened by requiring the accountant to review payroll details and remove the
erroneous postings promptly.


Auditor’s Response
Based on reviewing policies and procedures and discussions with SAHRA personnel during field work, we agree
that the payroll time roster is verified and certified electronically on a biweekly basis. However, it was clearly
indicated in discussions by the departments’ authorized approver that the verification and approval process was
to ensure timesheets for all employees matched the register and were signed by the employee and supervisors.
Nonetheless, we acknowledge and concur with the University’s policy to require the PI to approve and certify the
work by all employees on the grant on a quarterly basis.

During the field work, we reviewed the journal entries, which removed the two transactions posted in error.
However, the scope of the audit was for the period of January 1, 2000 to September 30, 2004 and the journal
entries were made in October 2004, which is outside our audit period. Therefore, questioned costs remain
unchanged.


Overcharging of Publication Costs

The University charged the NSF award for the full amount of invoices for publication costs, although it received a
discount from the vendors. This occurred because the University has a policy that provides that discounts on

                                                         13
National Science Foundation
Office of Inspector General
(Continued)


third-party publications will be retained by the University print shop as an offset to overhead. Because this policy
is not in conformance with the University’s negotiated indirect cost rate, we have questioned a total of $470 in
publications and indirect costs.

Our review of publication costs identified three transactions, which were billed to SAHRA from the University’s
central print shop. Supporting documentation indicated the work was actually performed by a third party vendor
and billed to the University. The vendor’s invoice provided for a 2% discount for the work performed and the
University’s payment to the vendor took advantage of this discount. However, the University charged the full
amount of the invoice to the NSF award rather than passing the savings on to the NSF award as required.
Instead, the University’s print shop retained the 2% discount as revenue to help offset its overhead costs.

The University negotiates its indirect cost rate with the Department of Health and Human Services (HHS). As
required, the University also submits a Cost Accounting Standards Board Disclosure Statement that describes
how it accounts for administrative and overhead costs. This statement reveals that the University print shop is
funded through user fees that are based on a combination of historical and projected costs. The University
provided no additional documentation to indicate whether the 2% discount on third-party vendor invoices was
properly determined based on the cost accounting standards for the print shop. In addition, an HHS
representative does not believe that the 2% administrative fee is in conformance with the University’s negotiated
rate structure. As a result, out of $21,728 in costs selected for review, we have questioned $310 of publication
costs and the associated indirect costs of $160, for a total of $470. (Also see Schedule of Questioned Costs,
Schedule B, Note B-7)


Recommendation No. 5
We recommend that NSF’s Directors of DACS and DGA instruct the University of Arizona to review its indirect
cost rate to ensure the 2% discount on third-party vendor invoices is proper under the University’s cost accounting
standards and does not result in an overcharge to the NSF award.


Awardee Comments
The University does not concur with the finding as they believe the 2% discount was passed onto the NSF award.
The University Printing and Graphics Services (P&Gs) processes printing orders for departments and adds a 2%
handling charge to recover applicable internal service center coordination/processing costs. Such costs are not
included in the University’s Facilities & Administrative (F&A) rates. P&G sets a billing rate of 2% to recover
operating costs, equipment depreciation, and buildings and improvement use allowances. Documentation
showing P&G’s rates has been submitted with the response. In addition, the University discussed the finding with
their HHS representative and HHS agrees that P&G is a service unit and its operating costs are not factored into
the University’s F&A rates.


Auditor’s Response
We have reviewed the submitted documentation and acknowledge that the P&G is a service unit within the
University. However, from the documentation submitted, it is not clearly documented how the 2% calculation
covers P&G operation costs. Specifically, the University’s Printing & Graphic Services states it manages the print
program and “charges a 2% administrative fee for these services.” The University submitted a trial balance of
P&G costs for fiscal year end 2005, however, it was still unclear how the University calculated the 2% charge. As
such, we are unable to determine if 2% is an equitable assessment. Therefore, the finding and recommendation
remain unchanged.




                                                        14
National Science Foundation
Office of Inspector General
(Continued)


We considered these internal control weaknesses in forming our opinion of whether Schedule A is presented fairly
in all material respects, in conformity with National Science Foundation policies and procedures, and determined
that this report does not affect our report dated August 5, 2005 on the financial schedule.

This report is intended solely for the information and use of the University of Arizona’s management, the National
Science Foundation, the Office of Management and Budget, and the Congress of the United States of America
and is not intended to be and should not be used by anyone other than those specified parties.




Irvine, California
August 5, 2005




                                                       15
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


                      INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by the University of Arizona (University) to the National Science Foundation
(NSF) on the Federal Cash Transactions Reports – Federal Share of Net Disbursements for the NSF award listed
below. In addition, we have also audited the amount of cost sharing claimed on the award. The Federal Cash
Transactions Reports - Federal Share of Net Disbursements, as presented in the Schedule of Award Costs
(Schedule A), are the responsibility of the University’s management. Our responsibility is to express an opinion on
Schedule A based on our audit.


                Award Number                       Award Period                       Audit Period

                EAR – 9876800                  01/01/00 – 12/31/04                01/01/00 – 09/30/04

Except as discussed in the following paragraph, we conducted our audit in accordance with auditing standards
generally accepted in the United States of America, the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States of America, and the
National Science Foundation Audit Guide (November 2003). Those standards and the National Science
Foundation Audit Guide, require that we plan and perform the audit to obtain reasonable assurance that the
financial schedules are free of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial schedules. An audit also includes assessing the
accounting principles used and the significant estimates made by management, as well as evaluating the overall
financial schedule presentation. We believe our audit provides a reasonable basis for our opinion.


The accompanying financial schedule was prepared in conformity with the requirements of the National Science
Foundation Audit Guide as described in the Notes to the Schedules, and is not intended to be a complete
presentation of financial position in conformity with accounting principles generally accepted in the United States
of America.


Schedule B identifies $52,737 of NSF-funded and $335,187 of cost sharing costs that are questioned as to their
allowability under the award agreements. Questioned costs are (1) costs for which there is documentation that
the recorded costs were expended in violation of the law, regulations or specific conditions of the award, (2) costs
that require additional support by the awardee, or (3) costs that require interpretation of allowability by the
National Science Foundation – Division of Acquisition and Cost Support (DACS). The National Science
Foundation will make the final determination regarding whether such costs are allowable. The ultimate outcome
of this determination cannot presently be determined. Accordingly, no adjustment has been made to costs
claimed for any potential disallowance by NSF.


In our opinion, except for the questioned costs identified in Schedule B, the financial schedule referred to above
presents fairly, in all material respects, the costs claimed on the Federal Cash Transactions Reports as presented

                                                        16
National Science Foundation
Office of Inspector General
(Continued)


in the Schedule of Award Costs (Schedule A), for the period January 1, 2000 to September 30, 2004 in conformity
with the National Science Foundation Audit Guide, NSF Grant Policy Manual, terms and conditions of the NSF
award and on the basis of accounting described in the Notes to the Financial Schedules.


In accordance with Government Auditing Standards, and the provisions of the National Science Foundation Audit
Guide, we have also issued a report dated August 5, 2005 on our tests of the University’s compliance with certain
provisions of laws, regulations, the provisions of the National Science Foundation Audit Guide, and the award
applicable to the University and conditions and our consideration of the University’s internal control over financial
reporting. The purpose of that report is to describe the scope of our testing, and not to provide an opinion on the
internal control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in considering
the results of our audit.

This report is intended solely for the information and use of the University of Arizona’s management, the National
Science Foundation, the Office of Management and Budget, and the Congress of the United States of America
and is not intended to be and should not be used by anyone other than these specified parties.




Irvine, California
August 5, 2005




                                                         17
                                                                                                        SCHEDULE
                                                                                                               A
                                              UNIVERSITY OF ARIZONA
                                National Science Foundation Award Number EAR-9876800
                                                 Schedule of Award Costs
                                           January 1, 2000 - September 30, 2004
                                                          Interim

                                                                          Costs
                                       Approved       Claimed           Selected        Questioned           Schedule
         Cost Category                  Budget        Costs (A)        for Review         Costs              Reference
Direct costs:
                                       $
  Salaries and wages                  5,459,754      4,639,849        956,165               16,011             B-1

  Fringe benefits                     859,096        807,104          168,977                 2,936            B-2

  Equipment                           777,389        553,990          117,204                   -

  Travel                              382,500        314,927          68,818                    -

  Participant support                 288,174        214,420          73,605                    -
  Other direct costs:

       Material and supplies          455,406        452,873          95,576                    -

       Publication                    100,666        60,308           21,728                   310             B-7

       Consulting                     44,000         119,337          70,286                  2,516            B-3

       Subawards                      4,425,208      3,384,726        1,914,520             19,751             B-4

       Other direct costs             181,810        145,500          29,913                    -


           Total direct costs         12,974,003     10,693,034       3,516,792             41,524

                                                                                                               B-5
Indirect costs                        4,018,246      3,476,280        3,476,280             11,213

                                       $
           Total                                                                            52,737
                                      16,992,249     14,169,314       6,993,072

                                       $
Cost sharing                                                                               335,187             B-6
                                      6,691,853      6,658,098        2,544,856


    (A) - The total claimed costs agrees with the total expenditures reported by the University of Arizona
    on the Federal Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended
    September 30, 2004. Claimed costs reported above are taken from the awardee's books of accounts.


                                                      18
                                                                                                  SCHEDULE B


                                    UNIVERSITY OF ARIZONA
                     National Science Foundation Award Number EAR - 9876800
                                   Schedule of Questioned Costs
                            From January 1, 2000 to September 30, 2004


Note B-1   Salaries & Wages
           During our review of Salaries & Wages, we selected a random sample of 14 pay periods for
           review, which resulted in a total of 1,132 payroll transactions. For each transaction, we requested
           time sheets and payroll distribution reports for further review. Our review disclosed 18 payroll
           transactions in which no time sheets were available to support the salary amount charged to the
           NSF award. The University has implemented policies and procedures requiring all employees to
           submit a signed time sheet in order to be paid for a pay period.

           Of the 18 payroll transactions, we identified four of the transactions as pertaining to individuals
           who are on academic appointment, which do not require timesheets. However, OMB Circulars
           still require an after-the-fact certification documenting the level of effort for professors who do not
           complete timesheets.

           The University reversed two of the 18 transactions out of the general ledger in October 2004.
           However, such action was outside the scope of the audit. The two transactions were reported
           and charged to the award as of September 30, 2004.

           Without properly completed time sheets to support salary & wage expenses charged to the NSF
           award, we could not determine whether the costs were allocable to the award. As a result, we
           have questioned $16,011 of salary & wage expenses as follows:            (See Finding and
           Recommendation No. 4 in the Report on Compliance and Other Matters and Internal Controls
           over Financial Reporting.)

                                                              Questioned
                                Check       Number of            Salary
                                 Date      Transactions         Amount
                               06/29/01         2             $    692
                               07/13/01         1                  100
                               06/28/02         2                  680
                               07/12/02         3                6,443
                               07/11/03         4                4,336
                               07/25/03         1                  776
                               08/08/03         1                  776
                               06/11/03         2                1,288
                               07/23/04         2                  920
                                   Total        18            $ 16,011

           Awardee’s Response
           The University concurs that 12 timesheets were misfiled and the payroll transactions is
           unsupported, totaling $5,693. However, the University believes that six transactions (four related
           to academic personnel and two removed from the grant) should not be questioned.

           In addition, the University does not concur with the finding stating the University has no signed
           certification of an employee’s effort for the academic personnel. Although the University does not
           require timesheets for academic personnel, the payroll time roster is verified and certified
           electronically on a biweekly basis by the department authorized official for all employees.
           Starting January 1, 2006, the business manager has taken an additional step to require the PI
           approve and certify the work performed by all employees on the grant on a quarterly basis.


                                                    19
                                                                                                 SCHEDULE B


                                    UNIVERSITY OF ARIZONA
                     National Science Foundation Award Number EAR - 9876800
                                   Schedule of Questioned Costs
                            From January 1, 2000 to September 30, 2004

                                               (Continued)


Note B-1   Salaries & Wages, (Continued)

           Awardee’s Response, (Continued)
           Furthermore, the University believes that the two transactions, which were transferred out of the
           grant in October 2004, should not be questioned. The two transactions were posting errors and
           removed from the grant when detected. Although the correction was not made within the audit
           period, it was made before the start of audit. Internal controls were strengthened by requiring the
           accountant to review payroll details and remove the erroneous postings promptly.


           Auditor’s Response
           Based on reviewing policies and procedures reviewed and discussions with SAHRA personnel
           during field work, we agree that the payroll time roster is verified and certified electronically on a
           biweekly basis. However, it was clearly indicated in discussions by the departments’ authorized
           approver that the verification and approval process was to ensure timesheets for all employees
           matched the register and were signed by the employee and supervisors. Nonetheless, we
           acknowledge and concur with the University’s policy to require the PI to approve and certify the
           work by all employees on the grant on a quarterly basis.

           During the field work, we reviewed the journal entries, which removed the two transactions posted
           in error. However, the scope of the audit was for the period of January 1, 2000 to September 30,
           2004 and the journal entries were made in October 2004, which is outside our audit period.
           Therefore, questioned costs remain unchanged.


Note B-2   Fringe Benefits
           As a result of questioned salary & wage expense (Note B-1), we have also questioned the
           associated fringe benefits for those employees as follows: (See Finding and Recommendation
           No. 4 in the Report on Compliance and Other Matters and Internal Controls over Financial
           Reporting.)

                                                             Questioned
                                Check          # of             Salary
                                 Date      Transactions        Amount
                               06/29/01         2            $    131
                               07/13/01         1                   2
                               06/28/02         2                  26
                               07/12/02         3               1,261
                               07/11/03         4                 795
                               07/25/03         1                 113
                               08/08/03         1                 113
                               06/11/03         2                 186
                               07/23/04         2                 309
                                   Total        18           $ 2,936




                                                    20
                                                                                              SCHEDULE B


                                    UNIVERSITY OF ARIZONA
                     National Science Foundation Award Number EAR - 9876800
                                   Schedule of Questioned Costs
                            From January 1, 2000 to September 30, 2004

                                             (Continued)


Note B-2   Fringe Benefits, (Continued)

           Awardee’s Response
           The University does not concur with the amounted questioned for salaries and wages. As a
           result, the University believes that only 12 transactions are unsupported totaling, $753.


           Auditor’s Response
           Based on our review of the Univeristy’s response to Note B-1, questioned costs remained
           unchanged. As such, the corresponding fringe benefit costs also remain unchanged.


Note B-3   Consulting Costs
           We selected a random sample of 30 transactions charged as consulting costs to the NSF award
           for review. We then reviewed supporting documentation for each of the transactions to determine
           if the costs were allowable and allocable to the award. Our review disclosed one transaction for a
           consultant’s travel reimbursement to Brazil. However, the documentation failed to disclose the
           purpose and benefit of the trip. Without the proper documentation, we could not determine
           whether the expense was allocable to the award. Further review by University officials indicated
           the expense did not relate to the NSF award and the University made a journal entry in February
           2005 to remove the expense from the account used to track expenses related to the award.
           However, the audit period of this report is January 1, 2000 through September 30, 2004 and the
           consulting costs were claimed against the NSF award as of September 30, 2004. As a result, we
           have questioned $2,516 of consulting costs as follows: (See Finding and Recommendation No. 3
           in the Report on Compliance and Other Matters and Internal Controls over Financial Reporting.)

                                                       University
                                                       Document        Questioned
                      Consultant            Date        Number          Amount
                   XXXXXXXXXXXXxx         09/03/04      K822663         $ 2,516


           Awardee’s Response
           The University concurs the consulting costs of $2,516 should not have been charged to the grant.
           The University has removed the costs and associated indirect costs from the grant in February
           2005. In addition, the SAHRA center has implemented formal approval process for consulting
           expenditures since January 1, 2005. This new practice should eliminate wrong charges of
           consulting costs to the grant.




                                                  21
                                                                                               SCHEDULE B


                                    UNIVERSITY OF ARIZONA
                     National Science Foundation Award Number EAR - 9876800
                                   Schedule of Questioned Costs
                            From January 1, 2000 to September 30, 2004

                                              (Continued)


Note B-3   Consulting Costs, (Continued)

           Auditor’s Response
           We acknowledge that a journal entry was made to remove the costs from accounting records
           maintained to track grant costs. However, the audit period of this report was from January 1,
           2000 through September 30, 2004. Cumulative costs on the FCTR submitted for the quarter
           ending September 30, 2004 was the basis of our audit. The correction was outside the scope of
           the audit and the costs were claimed and NSF funds were drawn during our audit period. As a
           result, the questioned costs remain unchanged.


Note B-4   Subaward Costs
           Depending on the cash flow necessity, subawardees could either bill the University on a monthly
           or quarterly basis. In either case, subawardees would submit an invoice, which is processed
           within the University as a payment to vendors. The invoice is reviewed for budgetary compliance
           and approved by the Business Manager assigned to monitor SAHRA Center expenditures and
           paid through the University’s Financial Service Office. However, there are no additional policies
           or internal controls to ensure the amounts on the invoices are accurate, allocable, allowable, and
           properly supported per NSF and OMB regulations. The University had assumed that the certified
           invoices from the subawardees were sufficient to document the costs claimed. It also assumed
           that a clean review of the subawardees’ A-133 Single Audit report, allowed the University to
           accept the invoice, which was singed by responsible fiscal personnel at the subawardees, as
           accurate and complete.

           We selected a sample of invoices from each subawardee and requested the subawardees to
           submit source documentation to support the amounts claimed on the selected invoices. After
           extensive review of all the source documentation submitted, we noted that several subawardees
           either did not provide documentation or the documentation was inadequate to determine if the
           costs were allocable to the award. As a result, we have questioned $37,003 of subaward costs
           as follows: (See Finding and Recommendation No. 1 in the Report on Compliance and Other
           Matters and Internal Controls over Financial Reporting.)

                                                                   Questioned
                                     Subawardee                       Costs
                         University of California, Los Angeles    $    909
                         University of California, Riverside           843
                         Columbia University – Biosphere            17,999
                                                          Total   $ 19,751

           University of California, Los Angeles (UCLA)
           As of September 30, 2004, the University of Arizona’s detail ledgers indicated total costs incurred
           by UCLA was $311,963. We selected for review a sample of two invoices, totaling $144,488.
           Our review indicated either that some costs were not adequately documented with vendor
           invoices or UCLA did not provide supporting documentation. Without the proper documentation,
           we could not determine whether the costs were allowable and allocable to the award. As a result,
           we have questioned $909 of costs claimed by UCLA as follows:

                                                   22
                                                                                               SCHEDULE B


                                    UNIVERSITY OF ARIZONA
                     National Science Foundation Award Number EAR - 9876800
                                   Schedule of Questioned Costs
                            From January 1, 2000 to September 30, 2004

                                              (Continued)

Note B-4   Subaward Costs, (Continued)

                       Invoice    Transaction                      Questioned
                       Number         Date        Trans Ref GL       Amount          Notes
                          3         04/26/01      0135TBB686       $   308             B
                          3         12/05/01                           163            C
                          8         05/01/03      017792                79             A
                          8         07/07/03      018659                 (1)           A
                          8         07/31/04      Unknown                 8            A
                          8         12/31/02      0135TDB376           200             A
                          8         09/22/04                            152            C
                                                            Total  $    909
                       Notes
                       (A) No documentation provided.
                       (B) Total amount charged was $573 for travel expense to attend the SAHRA
                           annual meeting. An expense report and receipts were provided, however,
                           the hotel bill of $308 was a blank sheet with the hotel logo imprinted on the
                           top. As such, we were unable to verify the accuracy of hotel costs.
                       (C) Indirect cost portion claimed on questioned costs.

           University of California, Riverside (UCR)
           As of September 30, 2004, the University of Arizona’s detail ledgers indicated total costs incurred
           by UCR was $178,846. We selected for review a sample of two invoices, totaling $85,978. Our
           review indicated the amount reported on one invoice was higher by $843 than the amount
           reported in UCR records. UCR submitted additional documentation to support the variance. The
           documentation submitted was a travel reimbursement form totaling $1,639. However, there were
           no invoices or receipts to support the travel reimbursement form. In addition, there was no
           reconciliation or allocation documentation to support how the $1,639 related to the difference in
           question. As a result, we have questioned $843 of costs claimed by UCR.

           Columbia University - Biosphere (CUB)
           As of September 30, 2004, the University of Arizona’s detail ledgers indicated total costs incurred
           by CUB was $17,999. We selected for review a sample of one invoice, totaling $16,139.
           However, CUB was not able to provide any documentation to support the claimed costs. Due to
           legal issues regarding a split in the organization, all financial records have been seized by the
           attorneys and are unavailable for audit review. The University of Arizona has contended that
           services have been properly rendered and the costs should be allowed. However, the University
           of Arizona has not performed any review of the documents supporting the amount claimed.
           Without adequate source documentation, we could not determine whether the costs claimed by
           CUB are allowable, allocable, reasonable, and properly documented as required by NSF
           regulations and OMB Circulars. As a result, we have questioned all costs claimed by CUB,
           $17,999.




                                                   23
                                                                                            SCHEDULE B


                                    UNIVERSITY OF ARIZONA
                     National Science Foundation Award Number EAR - 9876800
                                   Schedule of Questioned Costs
                            From January 1, 2000 to September 30, 2004

                                             (Continued)


Note B-4   Subaward Costs, (Continued)

           Awardee’s Response
           University of California, Los Angeles (UCLA)
           The University of Arizona does not concur with the questioned amount of $909. Additional
           supporting documentation was submitted with the response and the University of Arizona
           believes the revised questioned costs should be $286.

           University of California, Riverside (UCR)
           The University of Arizona does not concur with the questioned amount of $843. Additional
           supporting documentation was submitted with the response and the University of Arizona
           believes no costs should be questioned.

           Columbia University - Biosphere (CUB)
           The University of Arizona (Arizona) does not concur with the questioned amount of $17,999.
           CUB did not provide supporting documentation due to a lawsuit between Columbia University and
           BioSphere2, which is beyond the control of Arizona. Additional support was submitted with the
           response to documents the research conducted by CUB and a certification from the principal
           investigator indicating the services provided by CUB was satisfactory.


           Auditor’s Response
           University of California, Los Angeles (UCLA)
           We have reviewed the additional submitted documentation and have revised our questioned
           costs accordingly. The remaining costs have been questioned because of the lack of any
           supporting documentation.

           University of California, Riverside (UCR)
           We have reviewed the additional submitted documentation and are still unable to determine how
           questioned costs of $843 are supported by the submitted documentation.               The first
           documentation was an e-mail to indicate travel expense of $665, but there were no receipts to
           support the costs. The second documentation was a travel expense form for a total of $1,639
           with the associate receipts. However, there was no reconciliation or allocation methodology to
           determine how it relates to the questioned costs of $843. Therefore, questioned costs remain
           unchanged for UCR.

           Columbia University - Biosphere (CUB)
           We have reviewed the additional documentation submitted and will still continue to question the
           costs associated with CUB. The basis of the finding is the lack of accounting records and source
           documentation to support the costs claimed by CUB and not on the basis of whether CUB
           provided the services. Without accounting records or source documentation to support the costs
           claimed, it could not be determined if the costs were accurate, allocable, and allowable per the
           NSF grant award. Therefore, questioned costs remain unchanged for CUB.




                                                 24
                                                                                            SCHEDULE B


                                    UNIVERSITY OF ARIZONA
                     National Science Foundation Award Number EAR - 9876800
                                   Schedule of Questioned Costs
                            From January 1, 2000 to September 30, 2004

                                             (Continued)


Note B-5   Indirect Costs

           As a result of costs questioned in Notes B-1, B-2, B-3 and B-7, we have also questioned indirect
           cost claimed by the University as follows:

                                                                           Questioned
                                                                             Costs
                Note B-1 – Questioned Salary & Wage                        $ 16,011
                Note B-2 – Questioned Fringe Benefits                         2,936
                Note B-3 – Questioned Consulting Costs                        2,516
                Note B-7 – Questioned Publication Costs                         310
                                           Total Questioned Direct Costs   $ 21,773
                University of Arizona’s Indirect Cost rate                    51.50%
                                               Questioned Indirect Costs   $ 11,213


           Awardee’s Response
           The University did not concur with the amount questioned in Notes B-1, B-2, B-3, and B-7. As
           such, the University does not concur with the amount questioned as indirect costs. Based on the
           University’s calculation, questioned indirect costs should be $3,320.


           Auditor’s Response
           Based on our review of the Univeristy’s response to Notes B-1, B-2, B-3, and B-7, questioned
           costs remained unchanged. As such, the corresponding indirect costs also remain unchanged.


Note B-6   Cost Share
           As of August 31, 2004, the University certified total cost share expenditures as $6,658,098.
           According to records maintained by the University, approximately $1 million of the claimed cost
           share expenditures were contributed from subawardees. The University does not require the
           subawards to submit detail ledgers or other source documents to support the cost share amount
           claimed. During our audit, we requested each subaward to submit detail ledgers or transaction
           reports to support the amount claimed. From submitted detail ledgers, we reconciled the total
           amounts to the amounts reported by the University. Once reconciled, we selected a sample of
           transactions and requested the Subawardees to submit the source documents for review. After
           reviewing the submitted documentation, we noted that some of the costs were either inadequately
           supported or the subawardees provided no documentation to support the claimed costs. As a
           result, we have questioned $335,187 of cost share claimed by subawards as follows: (See
           Finding and Recommendation No. 1 in the Report on Compliance and Other Matters and Internal
           Controls over Financial Reporting.)




                                                 25
                                                                                               SCHEDULE B


                                    UNIVERSITY OF ARIZONA
                     National Science Foundation Award Number EAR - 9876800
                                   Schedule of Questioned Costs
                            From January 1, 2000 to September 30, 2004

                                              (Continued)


Note B-6   Cost Share, (Continued)

                                                                  Questioned
                                     Subawardee                   Cost Share
                         Arizona State University                 $ 1,160
                         New Mexico Institute for Mining            118,207
                         Pennsylvania State University              139,327
                         University of California, Riverside         66,448
                         University of New Mexico                    10,045
                                                          Total   $ 335,187


           Arizona State University (ASU)
           Per the University of Arizona’s detail records, ASU contributed a total of $25,475 to cost share.
           Detail records, obtained from ASU, indicated ASU incurred more than $25,475 of cost share
           expenditures. However, only $24,315 was substantiated with adequate source documentation.
           The remaining amount of $1,160 was not adequately supported with documentation. As a result,
           we have questioned $1,160 of cost share claimed by ASU.

           New Mexico Institute for Mining & Technology (NMT)
           Per the University of Arizona’s detail records, NMT contributed a total of $559,615 to cost share.
           However, based on our review of NMT’s general ledgers, our review of source documents, and
           discussions with NMT accounting personnel, total cost share incurred by NMT was $441,408.
           NMT provided no additional documentation to support the difference of $118,207. As a result, we
           have questioned $118,207 of cost share claimed by NMT.

           Pennsylvania State University (Penn)
           Per the University of Arizona’s detail records, Penn contributed a total of $139,327 to cost share.
           We requested that Penn submit detail ledgers or transaction detail reports to support the amounts
           claimed. Our intention was to reconcile the ledger or report to the amount reported by the
           University and select a sample of transactions for review. However, Penn did not provide any
           documentation to support cost share expenditures. Penn has indicated that any review of costs
           incurred for the NSF award should be performed at Penn. However, Penn was willing to and did
           provide source documentation for costs claimed as NSF reimbursable during our review of
           subawardee costs. Without adequate documentation to support cost share amounts claimed, we
           could not determine whether the costs are allowable, allocable, reasonable, and properly
           documented as required by NSF regulations and OMB Circulars. As a result, we have
           questioned $139,327 of cost share claimed by Penn.




                                                   26
                                                                                               SCHEDULE B


                                    UNIVERSITY OF ARIZONA
                     National Science Foundation Award Number EAR - 9876800
                                   Schedule of Questioned Costs
                            From January 1, 2000 to September 30, 2004

                                              (Continued)


Note B-6   Cost Share, (Continued)

           University of California, Riverside (UCR)
           Per the University of Arizona’s detail records, UCR contributed a total of $66,448 to cost share. A
           detail listing of cost share expenditures provided by UCR indicated cost share expenditure to be
           $39,037. We then selected a sample of transactions from the detail listing for further review, but
           UCR did not provide any source documentation to support the selected transactions. However,
           UCR was willing to and did provide source documentation for costs claimed as NSF reimbursable
           during our review of subawardee costs. UCR provided no explanation as to why documentation
           was not provided. Without adequate documentation to support cost share amounts claimed, we
           could not determine whether the costs are allowable, allocable, reasonable, and properly
           documented as required by NSF regulations and OMB Circulars. As a result, we questioned
           $66,448 of cost share claimed by UCR.

           University of New Mexico (UNM)
           Per the University of Arizona’s detail records, UNM contributed a total of $120,779 to cost share.
           UNM submitted detailed payroll records totaling $110,734 to support the total costs claimed as
           cost share. However, UNM provided no additional documentation or explanation to support the
           difference of $10,045. Without adequate documentation to support cost share amounts claimed,
           we could not determine whether the costs are allowable, allocable, reasonable, and properly
           documented as required by NSF regulations and OMB Circulars. As a result, we questioned
           $10,045 of cost share claimed by UNM.


           Awardee’s Response
           The University concurs that a discrepancy existed between the cost sharing number reported by
           the University through the NSF FastLane and the cost sharing numbers recognized in the
           subwardee’s accounting systems. The University did not examine the detail cost sharing
           supporting documentation submitted by the subawardees during the audit and therefore are
           unable to verify the calculation of $335,187.

           To correct the cost sharing amount reported, the University has requested subawardees to report
           and certify their cost sharing numbers for the period of October 31, 2004. The review total cost
           sharing amount of $6,355,408 was reported to NSF on August 24, 2005.


           Auditor’s Response
           Notwithstanding the awardee’s comments, questioned costs remain unchanged.




                                                   27
                                                                                              SCHEDULE B


                                    UNIVERSITY OF ARIZONA
                     National Science Foundation Award Number EAR - 9876800
                                   Schedule of Questioned Costs
                            From January 1, 2000 to September 30, 2004

                                             (Continued)


Note B-7   Publication Costs
           We selected a random sample of four transactions, totaling $21,728, for review. Our review
           indicated three transactions that were billed from the University’s central print shop. Additional
           documents indicated the print shop contracted with a third party vendor to perform the required
           services. The third party vendor gave the University a 2% discount for the services, but the
           University charged the full invoice amount to the NSF award. The University has indicated the
           2% difference is a recovery of the print shop’s overhead. The University’s Cost Accounting
           Standards Board Disclosure Statement reveals that University print shop is funded through user
           fees that are based on a combination of historical and projected costs. The University provided
           no additional documentation to indicate whether the 2% discount on third-party vendor invoices
           was properly determined based on the cost accounting standards for the print shop. As a result,
           we questioned $310 of publication costs as follows: (See Finding and Recommendation No. 5 in
           the Report on Compliance and Other Matters and Internal Controls over Financial Reporting.)

                                              University
                             Transaction      Document       Questioned
                                 Date          Number          Costs
                               09/12/03        I467515         $ 104
                               11/14/03        I474138           102
                               01/09/04        I480541           104
                                                    Total      $ 310


           Awardee’s Response
           The University does not concur with the questioned costs as the 2% discount received from the
           third party vendor was pass on the NSF award. Additional documentation has been submitted.


           Auditor’s Response
           We have reviewed the submitted documentation and acknowledge that the P&G is a service unit
           within the University. However, from the documentation submitted, it is not clearly documented
           how the 2% calculation covers P&G operation costs. Specifically, the University’s Printing &
           Graphic Services states it manages the print program and “charges a 2% administrative fee for
           these services.” The University submitted a trial balance of P&G costs for fiscal year end 2005,
           however, it was still unclear how the University calculated the 2% charge. As such, we are
           unable to determine if 2% is an equitable assessment.             Therefore, the finding and
           recommendation remain unchanged.




                                                  28
                                                                                          SCHEDULE C

                                  UNIVERSITY OF ARIZONA
                      Summary Schedules of Awards Audited and Audit Results
                          From January 1, 2000 to September 30, 2004

Summary of Awards Audited

  Award Number             Award Period               Audit Period
 EAR – 9876800        01/01/00 – 12/31/04       01/01/00 – 09/30/04


  Award Number            Type of Award                         Award Description
 EAR – 9876800        Grant                     Research and education of students to build an
                                                interdisciplinary perspective and technological
                                                skills within professionals practicing water
                                                resources management.



Summary of Questioned and Unsupported Costs by Award

                                                         Questioned
  Award Number        Award Budget     Claimed Costs        Costs
 EAR – 9876800         $ 16,992,249     $ 14,169,314     $ 387,924


Summary of Questioned Cost by Explanation

                               Questioned
          Category               Costs          Internal Controls        Non-Compliance
Salaries and Wages            $ 16,011                 Yes                    Yes
Fringe Benefits                  2,936                 Yes                    Yes
Equipment                         -                    Yes                     No
Travel                            -                    No                      No
Participant Support               -                    No                      No
Material & Supplies               -                    Yes                     No
Publication                       -                    Yes                    Yes
Consulting                       2,516                 Yes                    Yes
Subcontractors                  19,751                 Yes                    Yes
Other Direct Costs                -                    No                      No
Indirect Costs                  11,213                 Yes                    Yes
Cost Sharing                   335,187                 Yes                    Yes

Summary of Non-Compliance and Internal Control Findings

          Findings              Non-Compliance or Internal Control?     Material or Reportable?
Subaward Monitoring           Non-Compliance & Internal Control         Reportable
Cost Sharing                  Non-Compliance & Internal Control         Reportable
Electronic Payment Approval   Internal Control                          Reportable
Consulting Costs              Internal Control                          Reportable
Indirect Costs                Internal Control                          Reportable
Payroll Expense               Internal Control                          Reportable
Publication Costs             Internal Control                          Reportable




                                                29
                                        UNIVERSITY OF ARIZONA
                                        Notes to Financial Schedules
                                 From January 1, 2000 to September 30, 2004


Note 1:   Summary of Significant Accounting Policies

          Accounting Basis
          The accompanying financial schedule has been prepared in conformity with National Science
          Foundation (NSF) instructions. Schedule A has been prepared from the reports submitted to NSF. The
          basis of accounting utilized in preparation of these reports differs from generally accepted accounting
          principles. The following information summarizes these differences:

           A. Equity
                Under the terms of the award, all funds not expended according to the award agreement and
                budget at the end of the award period are to be returned to NSF. Therefore, the awardee does
                not maintain any equity in the award and any excess cash received from NSF over final
                expenditures is due back to NSF.

           B. Equipment
                Equipment is charged to expense in the period during which it is purchased instead of being
                recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in
                the statement of award costs include the cost of equipment purchased during the period rather
                than a provision for depreciation.
                The equipment acquired is owned by the University of Arizona while used in the program for
                which it was purchased or in other future authorized programs. However, NSF has the
                reversionary interest in the equipment. Its disposition, as well as the ownership of any proceeds
                there from, is subject to Federal regulations.

           C. Inventory
                Minor materials and supplies are charged to expense during the period of purchase. As a result,
                no inventory is recognized for these items in the financial schedules.

          The departure from generally accepted accounting principles allows NSF to properly monitor and track
          actual expenditures incurred by the Grantee. The departure does not constitute a material weakness
          in internal controls.

Note 2:   NSF Cost Sharing and Matching
          The following represents the cost share requirement and actual cost share as of September 30, 2004:
                                     Cost Share        Actual Cost Share
             Award Number             Required             Provided (A)         Over/(Under)
            EAR – 9876800         $ 6,691,853          $ 6,322,911            $ (368,942)

          (A) – Actual cost share provided reflects amount reported net of any questioned costs noted in
          Schedule A.

Note 3:   Indirect Cost Rates

               Award          Indirect Cost
              Number               Rate                                      Base
            EAR-9876800          51.50%        Modified Total Direct Costs (Total direct salaries, fringe
                                               benefits, materials, supplies, services, travel, and subawards
                                               (up to the first $25,000)


                                                       30
APPENDIX - AUDITEE’S COMMENTS TO REPORT
Financial Services Office                                                                          University Services Building
(520) 621-3220                                                                                     888 N. Euclid Ave., Rm. 502
FAX: (520) 626-6583                                   TUCSONARIZONA                                PO. Box 3310
                                                                                                   Tucson, AZ 85722-3310

                                         Response to Audit Results

                                     Compliance and Internal Control Issues

                 Inadequate Subawardee Monitoring

                 We concur. The University of Arizona (the University) will develop and implement
                 written policies and procedures to assess and document each subawardee's risk of
                 claiming non-allocable or non-allowable costs, including cost sharing expenditures. The
                 responsible departments within the University will be advised for appropriate monitoring
                 activities according to the risk levels of subawardees.

                 We expect to complete the development of written policies and procedures by June 30,
                 2006. A copy of the new policies and procedures will be provided to the Office of
                 Inspector General at National Science Foundation (NSF) for review. We anticipate that
                 the implementation of the new policies and procedures start on July 1,2006.


                 Inadequate Retention of Electronic Payment Approvals

                 We do not concur that the University's electronic payment approvals were inadequately
                 retained. The University's on-line Department Purchase Requisitions (DPR) System
                 does retain payment approval signatures. DPR records are retained electronically in
                 perpetuity via magnetic tape.

                 Copies of the archived DPR records supporting the transactions in question were
                 submitted to the Conrad and Associates, L.L.P. auditor, Tom Huey, on November 2 1,
                 2005. See Attachment I for a copy of the documentation submitted.

                 Federal regulations require grants related records be kept for three years from the date of
                 the submission of the final financial report. Because the DPR record retention period is
                 longer than what is required by federal regulations and NSF award terms and conditions,
                 the University is in compliance with NSF regulations and OMB circulars.


                 Inadequate Review of Consulting Expenditures

                 We concur with the recommendation that the University should institute a formal policy
                 to require principal investigators or appropriate individuals on the research team to
                 approve consulting services received before payment is processed.



                                                                                                 Page 1 of 8
The University of Arizona: response to findings
NSF OIG Audit: Award No. EAR-9876800
Period: 1/1/00 - 9/30/04


As stated in the draft audit report, the SAHRA center has implemented a formal approval
process for consulting expenditures since January 1,2005. The business manager at the
SAHRA center will obtain formal approval from either the principal investigator (PI) or
research team leaders before any payment to consultants is processed.

The University is in the process of formalizing this practice into a written policy in the
following university policy manuals:

    Handbook for Principal Investigators, under section for Post Award, Other Operating
    Costs

    The Handbook for PIS informs the PIS the award process and guidelines for their fiscal
    and technical responsibilities.

    Financial Records System (FRS) Departmental Manual, Section 9.10,
    Requisition/Reimbursement

    The FRS Departmental Manual is the authoritative source of policies, procedures,
    forms and reports used by the University departments in carrying out their functions
    related to the administration of overall financial matters.


Inadequate Documentation of Payroll Expenses

We concur with the recommendation that timesheets should be properly filed and
maintained at the SAHRA center. However, we do not concur that all 18 transactions
should be questioned. We maintain that the 6 transactions, 4 related to the salaries to
academic personnel and 2 removed form the grant, should not be questioned.

We do not concur with the statement that the University has no signed certification of the
employee's effort. The University's payroll time roster is the official record of
employees' effort. Timesheets are subsidiary records for all wage employees. Although
the University does not require timesheets for academic personnel, the payroll time roster
is verified and certified electronically on a biweekly basis by the department authorized
official for all employees. The University policy requires the department authorized
official who approves the biweekly payroll time roster have either first-hand knowledge
or a suitable means of verification of the work performed for all the employees appearing
on the time roster. In the past, the SAHRA center's business manager verified the work
performed through daily communication and budget reviews with the PI. Starting from
January 1,2006, the business manager has taken an additional step to require the PI
approve and certify the work performed by all employees on the grant on a quarterly
basis. PI'S approval serves as additional subsidiary records for the payroll time roster.
Copies of the roster, which document the percentage of effort on the project for all
employees, were submitted for audit as part of the supporting documentation. Therefore,



                                                                                  Page 2 of 8
The University of Arizona: response to findings
NSF OIG Audit: Award No. EAR-9876800
Period: 1/1/00 - 9/30/04


we believe that the 4 transactions associated with employees with academic appointments
should not be questioned.

In addition, we believe that the 2 transactions which were transferred out of the grant in
October 2004 should not be questioned. These two transactions were posting errors and
were removed from the grant when the errors were detected. Although the correction
was not made within the audited period, it was made before the audit field work started.

As a result, we do not concur with the amount of the total cost questioned. We calculate
the total costs of the 12 unsupported payroll transactions as follows:

                                      Salaries
                                        &      Fringe        Indirect    Total                     Check
 Index        Emolovee Name            Wages ~ e n e f i t s Costs       Costs      Earn Date       Date
   1                                    $554     $ 105         $339        $999     6/24/200 1   6/29/200 1
   2                                      138        26             85       250    6/24/200 1   6/29/200 1
   3                                      100          2            52       154    6/30/2001    7/13/2001
   4                                       39          1           20          60   6/23/2002    6/28/2002
   5                                      64 1       26           343      1,010    6/23/2002    6/28/2002
   6                                      605      122            3 74     1,100    6/30/2002    711212002
   7                                     466         15           247        728    6/30/2003    711 112003
   8                                      3 10       45           183        53 8    7/6/2003    711 112003
   9                                      776      113            458      1,346    7/20/2003    7/25/2003
   10                                     776      113            45 8     1,346     8/3/2003    8/8/2003
   11                                     776      113            458      1,346     6/6/2004    611 112004
   12                                     5 12       74           302        889     6/6/2004    611 112004

         Total                         $5,693       $753      $3,320     $9,765



To ensure proper filing of timesheets, the SAHRA center has strengthened its internal
control over payroll transactions since January 1,2005. Each month, the accountant will
review payroll details and remove erroneous postings promptly. Formal policy has been
adopted to require paper timesheets or electronic timesheets for all employees including
off-site employees and employees whose timesheets are maintained in other University
departments.


Overcharging of Publication Costs

We do not concur. The University did pass the 2% discount for publication costs to the
NSF award.

The University Printing and Graphic Services (P&Gs) processes printing orders for the
University departments. Printing contractors bill P&Gs and P&Gs then bills the
respective department. However, P&Gs adds a 2% handling charge to recover applicable


                                                                                           Page 3 of 8
The University of Arizona: response to findings
NSF OIG Audit: Award No. EAR-9876800
Period: 1/1/00 - 9/30/04


internal service center coordination/processing costs. Such costs are not included in the
University's Facilities & Administrative (F&A) Rates.

P&Gs operates as an internal service center unit for the University. Its billing rates are
designed to recover current operating costs, equipment depreciation, and buildings and
improvements use allowance. The billing rate set by P&Gs to process printing orders for
fiscal year 2004 and 2005 was 2%. We have submitted supporting documentation which
shows that P&Gs operates on a cost basis. See Attachment I1 for a copy of the
documentation submitted n                 October 20,2005.

Thus, we do not concur with the finding that the University retained the 2% discount as
revenue to help offset its overhead costs. Our associate comptroller, who is responsible
in developing the indirect cost rate at the University, discussed this finding with the HHS
representative mentioned in the audit report. The HHS representative agrees that P&Gs
is a service unit and iwperating costs are not factored into the University's F&A rates.
 heref fog,
         *#
            the revenue collected by P&Gs did not offset the University's overhead costs.

         t
                                        Questioned Costs

Salaries & Wages (Schedule B, Note B-1): $16,011
         ,$,

~ e c a u s e % econcur thhi 12 instead of 18 timesheets were misfiled, we do not concur with
the amount of the salaries and wages questioned. See our response to the finding titled
Inadequate Documentation of Payroll Expenses. We calculate the costs of unsupported
salaries and wages as follows:


    Index              Employee Name              Salaries &Wages




               Total                                       $5.693




                                                                                  Page 4 of 8
The University of Arizona: response to findings
NSF OIG Audit: Award No. EAR-9876800
Period: 1/1/00 - 9/30/04



Fringe Benefits (Schedule B, Note B-2): $2,936

Because we do not concur with the amount of the salaries and wages questioned, we
calculate the costs of fringe benefits associated with the unsupported salaries and wages
as follows:


   Index                                          Fringe Benefits
     1                                                       $ 105
     2                                                          26
     3                                                            2
     4                                                            1
     5                                                    -     26
     6                                                         122
     7                                                           15
     8                                                          45
     9                                                         113
     10                                                        113
     11                                                        113
     12                                                         74

                Tntal                                        S 753




Consulting Costs (Schedule B, Note B-3): $2,516

We concur that the consulting costs of $2,516 should not have been charged to the grant.
As stated in the draft audit report, the University has removed the consulting costs of
$2,5 16 and associated indirect costs from the NSF grant in February 2005.

In addition, the SAHRA center has implemented a formal approval process for consulting
expenditures since January 1,2005. See our response to the finding titled Inadequate
Review of Consulting Expenditures. This new practice should eliminate wrong charges
of consulting costs to the grant.
             r:

            4
~ubaward$!osts          (Schedule B, Note B-4): $37,003


University o f California,Los Anneles (UCLA): $1 8,161
                    ,

We do not concur with the amount of the questioned costs. UCLA has submitted
additional supporting documentation in October 05. The University has forwarded the
documentation to Mr. Huey, on October 4,2005 and October 18,2005. On May 19,
2006, UCLA submitted additional documentation to the University. See Attachment I11


                                                                                Page 5 of 8
The University of Arizona: response to findings
NSF OIG Audit: Award No. EAR-9876800
Period: 1/1/00 - 9/30/04


for a copy of the documentation submitted during the audit and the additional
documentation submitted by UCLA.

As of May 23,2006, UCLA has not submitted and is searching for supporting
documentation for the following transactions:

 Invoice
 No.          Transaction Date      Trans Reference   Amount
     8        5/1/2003               17792            $   78.64




                  Pi
If UCLA cfmot provide fiuther documentation to support these transactions, the
~ n i v e r s i t y f ~request
                        ll     UC~A
                                  remove the charges and refund the University. Any refund
will be credited to the grani;whic~billreduce the current reimbursement from NSF.


University o f California, Riverside (UCR): $843

We do not concur. The travel costs of $843 claimed by UCR were adequately supported
and thus should not be questioned. UCR submitted additional supporting documentation
to the University on May 19,2006. See Attachment N for additional invoices, receipts,
and transfer justification from UCR.


Columbia University - Biosphere2 (CUB): $1 7,999

We do not concur. We believe that the costs of $17,999 should not be questioned.

Columbia University did not provide supporting documentation due to the lawsuit
between Columbia University and BioSphere2. The situation, however, is beyond the
control of the University. The University has submitted documentation which presents
                           Biosphere2 a i d acknowledges the completion of thd services.
                              is the associate director for education at SAHRA, prepared
                              and confirmed that the services provided by Biosphere2
were satisfactory. See Attachment V for a copy of the submitted documentation.


Indirect Costs (Schedule B, Note B-5):$11,213



                                                                                Page 6 of 8
The University of Arizona: response to findings
NSF OIG Audit: Award No. EAR-9876800
Period: 1/1/00 - 9130104


We do not concur with the amount of the indirect costs questioned. According to our
response to the direct costs questioned, we calculate the related indirect costs as follows:

 Salaries and Wages                                   $ 5,693
 Associated Fringe Benefit                                753
   Total Director Costs                                 6,446
 Indirect cost rate on the grant                      5 1.50%
    Indirect costs                                    $3,320


Cost Share (Schedule B, Note B-6): $335,187

We concur that discrepancy existed between the cost sharing number reported by the
University through the NSF FastLane and the cost sharing numbers recognized in the
subawardees' accounting systems. We did not examine the detail cost sharing supporting
documentation submitted by the subawardees during the audit; therefore, we are not able
to verify the calculation of $335,187.

To correct the cost sharing amount reported, the University has requested subawardees to
report and certify their cost sharing numbers for the period of October 1, 1999 to October
3 1, 2004. The revised total cost sharing amount of $6,355,408 was reported to NSF on
August 24,2005.


Publication Costs (Schedule B, Note B-7): $310

We do not concur. Because the University did pass the 2% discount received from the
third party vendor to the NSF award, we believe that the publication costs of $3 10 should
not be questioned. See our response to the finding titled Overcharging of Publication
Costs.




Signature                                               Date




                                                                                  Page 7 of 8
The University of Arizona: response to findings
NSF OIG Audit: Award NO. EAR-9876800
Period: 1/1/00 - 9/30/04




Contract Officer, Office of Research and Contract Analysis




                                                             Date




                                      Center




                                                             Date




                                                                    Page 8 of 8
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

            Email Hotline
            oig@nsf.gov

            Telephone
           703-292-7100

              Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                 Mail
     Office of Inspector General
    National Science Foundation
    4201 Wilson Blvd., Suite 1135
         Arlington, VA 22230
